OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/MOROCCO’S
CIVIL SOCIETY ADVOCACY
PROGRAM
AUDIT REPORT NO. 7-608-11-001-P
October 27, 2010




RIG/DAKAR

Office of Inspector General


October 27, 2010

MEMORANDUM

TO:       	          USAID/Morocco Mission Director, John Groarke

FROM:	               Regional Inspector General/Dakar, Gerard Custer /s/

SUBJECT:	            Audit of USAID/Morocco’s Civil Society Advocacy Program
                     (Audit Report No. 7-608-11-001-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in appendix II.

Based on actions taken by the mission and supporting documentation provided, management
decisions have been reached for recommendations 1 and 2, and final action has been achieved
for recommendation 3. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary documentation to
achieve final action for recommendations 1 and 2.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.govoig
CONTENTS

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 4 


     Grant Agreement Requirements
     Should Be More Specific............................................................................................. 4 


     Imminent Staffing Shortages
     Should Be Addressed ................................................................................................. 6 


     Financial Management
     Should Be Enhanced .................................................................................................. 8 


Evaluation of Management Comments ....................................................................... 10 


Appendix I—Scope and Methodology......................................................................... 11 


Appendix II—Management Comments........................................................................ 13 


Appendix III—SANAD Results Framework ................................................................. 15 


Appendix IV—SANAD Performance Indicators and Results ................................... 16

SUMMARY OF RESULTS

The Kingdom of Morocco’s government is a constitutional monarchy in which the king is
the head of state, the prime minister is the head of government, and a bicameral
Parliament and Supreme Court make up the legislative and judicial branches,
respectively. Although dominant authority rests with the king, Morocco has proven to be
a regional leader in implementing democratic reforms. However, only 37 percent of
eligible voters participated in the most recent parliamentary elections in 2007.

According to USAID/Morocco, this low voter turnout indicated that national and local
institutions have weak capacities and suffer from lack of credibility and legitimacy, and it
was a step backward for those in favor of a public mandate for continued democratic
reforms. As one potential solution to this and other problems with Morocco’s system of
democracy, USAID/Morocco identified the need to increase the capacities of Morocco’s
civil society organizations (CSOs). As a result, USAID/Morocco developed the Civil
Society Advocacy Program (referred to as SANAD1), which works to strengthen the
capacities of CSOs to play a greater role in the country’s process of political
liberalization and democratic reform through advocacy and networking. Under this
broad goal are five program components:

    1) Strengthened civil society institutional capacity and advocacy
    2) Greater synergy between national and local levels of civil society
    3) Improved capacity of local associations to play a strategic role in the National
       Initiative for Human Development (INDH)
    4) Increased capacity for CSOs to advocate for marginalized and disaffected youth
       and collaborate with local and national governments in innovative youth programs
    5) Enhanced capacity of local-level organizations to use civil society mobilization
       and advocacy to improve education quality at the community level

To accomplish SANAD’s objectives, USAID/Morocco signed a task order with
Management Systems International (MSI), a U.S.-based international development firm.
The award began on May 25, 2009, and will expire on May 30, 2012; a possible program
extension for a fourth and fifth year is subject to an external evaluation conducted at the
end of the second year of implementation. To obtain technical support for the use of
new technologies, e-learning and social networking, and sharing innovations online, MSI
has entered into subagreements with Morocco Trade and Development Services
(MTDS) and International Research and Exchanges Board (IREX).

The program’s budget is $7.5 million over 3 years, $1.2 million of which comes from
basic education funds, while the remaining $6.3 million comes from democracy and
governance funds. As of June 30, 2010, USAID/Morocco has obligated $2,192,000 and
expended $1,844,555 for the SANAD program. The Regional Inspector General/Dakar
conducted this audit at USAID/Morocco to determine if USAID/Morocco’s Civil Society
Advocacy Program was on track to achieve its main goals of enhancing civil society
institutions and advocacy. The audit team found that the program was behind schedule,
but that realistic plans for a productive fourth quarter would allow it to reach most or all of

1
 Strengthening Advocacy and Networking to Advance Democracy: “Sanad” means “support” in
Arabic.

                                            1

its year one targets for all 13 indicators included in the performance management plan
(PMP).2 For example, although SANAD reported zero for the number of CSO advocacy
campaigns supported by the U.S. Government, MSI reported that it was working with
more than four CSOs to prepare them to launch advocacy campaigns.

Specifically, as of June 22, 2010, SANAD had (1) supported 169 CSOs, surpassing its
target of 100, (2) supported 42 of the targeted 54 parent teacher associations or similar
school governance structures, and (3) delivered 1,422 person training days, compared
with the target of 2,000. However, it was behind schedule on most other targets.3 MSI
and USAID provided several reasons for little progress, including slow project startup
and administrative delays (described in more detail below).

On a broader level, in terms of the five program components and the main project
objective, the audit team found that it was too early to determine if SANAD was on track
to have the desired effect on Moroccan civil society. The audit team was not able to
observe any measurable impact because the program was still in the early stages of
implementation. In fact, after 11 months, total direct costs billed by MSI represented
only about one-half of the budgeted amounts for the first year. Several reasons for the
delays, as reported by mission and MSI officials, are summarized below.

    	 The program had to change its design as well as its indicators in order to partner
       with INDH, an important program initiated by the Government of Morocco.
       SANAD determined that it could accomplish many of its goals more effectively by
       partnering with INDH as well as the Social Affairs Division, another Government
       of Morocco entity. However, it took MSI longer than anticipated to establish
       relationships with these organizations because of the bureaucratic process.

    	 Establishing a relationship with the Ministry of Education took 10 weeks and
       delayed the start of activities at the school level.

    	 SANAD and the Improving Training for Quality Advancement in National
       Education Project (ITQANE) have taken longer than anticipated to develop a
       vision and craft an implementation plan on cross-sectoral programming in
       education. The collaboration began in January 2010, and several meetings have
       been held, but discussions are still ongoing. The model has and will continue to
       raise substantial management challenges related to technical coordination,
       monitoring and evaluation, and reporting of results.

    	 A lengthy process referred to as “advocacy mapping” was used to determine
       which geographic regions the program would target. This process involved an
       MSI subcontractor contacting hundreds of CSOs throughout Morocco. MSI used
       the end results of the mapping process along with input from USAID to decide
       where to implement the program to achieve the greatest impact. Unfortunately,
       the cumbersome nature of this mapping process contributed to the delay in
       starting implementation.



2
  The PMP contains 20 SANAD indicators; however, 7 are not applicable to year one of the

program. 

3
  Appendix IV contains a list of SANAD performance indicators and results. 



                                            2

   	 SANAD’s partnership with the Ministry of Social Development, Solidarity, and
      Family’s Takwia program in Fez was expected to yield results by the second
      quarter. However, with the end of year one approaching, an agreement had not
      been reached because of unforeseen differences between the Social
      Development Agency and the Provincial Human Development Committee.

   	 SANAD grant recipients require security clearances from the U.S. Embassy’s
      Regional Security Office and the Department of Homeland Security. Because
      this was the first USAID/Morocco project that involved grant recipients since the
      institution of a USAID-wide requirement for such screenings, the process for
      obtaining clearance took some time to develop. As a result, the first fixed
      obligation grant signings were still awaiting approval even though the list of
      recipients had been sent to the Embassy 2 months before. With regard to in-kind
      grants, USAID reported additional delays in determining whether these types of
      grantees were required to undergo the same security screening. It was
      eventually decided that the screening would be required, even though in-kind
      grants consist of MSI spending less than $2,000 for required goods or services
      and providing them to the grantee in lieu of providing funds directly. SANAD
      anticipated using these grants for photocopying, local travel, facility rental, or
      hiring a few days of local technical assistance. At the time of the audit, MSI was
      gathering security information to submit 43 in-kind grants for security screening.
      These delays are particularly problematic, as many of the grants are related to
      the education component (number 5 above) and therefore could have been much
      more effective if they were signed before the school year ended. Both MSI and
      USAID/Morocco hoped that future clearances would be much more efficient,
      since the process has now been developed and completed for the first time.

In spite of these challenges, most of which have already been overcome, the program is
expected to achieve its targets for year one by having a productive fourth quarter.
However, the audit team identified three issues that pose potential challenges for the
mission’s future performance: (1) the grant agreements were not specific about
requirements for financial and progress reports, (2) mission staffing shortages may
impede program implementation, and (3) financial reports were not sufficiently detailed
for proper monitoring of program. To address these weaknesses, the audit team
recommends that USAID/Morocco:

   1. 	Develop and implement a plan to ensure that grantees are aware of their
       financial management obligations (page 6).

   2. 	 Modify all grant agreements to include specific requirements for progress reports,
        financial reports, cost-sharing contributions, and site visits (page 6).

   3. 	 Require the implementing partner to provide quarterly financial reports (page 9).

Detailed findings appear in the following section. The audit’s scope and methodology
are described in appendix I.

USAID/Morocco agreed with all three recommendations. Based on actions taken by the
mission and supporting documentation provided, management decisions have been
reached for recommendations 1 and 2 and final action has been achieved for
recommendation 3. USAID/Morocco’s comments appear in their entirety in appendix II.


                                            3

AUDIT FINDINGS

Grant Agreement Requirements
Should Be More Specific
USAID has developed extensive guidelines on the management of assistance awards
and requirements that require agreement with the terms of an award and mandatory
standard provisions. USAID’s Automated Directives System (ADS) 303, Grants and
Cooperative Agreements to Nongovernmental Organizations, states that technical
representatives should review and analyze reports, monitor reporting requirements, and
ensure the recipient’s compliance with numerous terms and conditions of an award.

The Civil Society Advocacy Program’s (SANAD) Grants Management Manual, a
document developed by Management Systems International (MSI) and approved by
USAID/Morocco, requires that grant recipients provide a final financial report within 30
days of the completion of a fixed obligation grant. Additionally, the task order agreement
between USAID and MSI states that MSI will “provide grant management and oversight
services, including monitoring and evaluating grant funded projects.”

Over the life of SANAD, MSI intends to enter into grant agreements totaling $1 million,
with the vast majority to be used for fixed obligation grants, worth about $25,000 each, to
approximately 40 small associations. These agreements require only that grantees
meet milestones and provide proof such as a training agenda, a list of participants, or
photos. The specific requirements differ depending on the milestone reached and the
type of association involved. However, the grant agreements did not specify any other
reporting requirements, such as standardized financial or progress reports.
Furthermore, the cost-sharing requirements were unclear and there was no requirement
for site visits.

Performance Reporting – MSI’s chief of party and monitoring and evaluation specialist
agree that progress reporting is important and intend to periodically request data on
results achieved, even though progress reports are not required in the grant agreement.
Because the office did not formally require periodic progress reports in the agreements,
annual reporting for grantee accomplishments may be incomplete or based on
estimates. Furthermore, without a requirement to do so, grantees may not be able or
willing to provide this information.

Financial Reporting – According to SANAD’s grants management manual, “there are
two components to the review of the financial report—1) review for completeness,
correct arithmetic, consistency with prior reports, and conformity to the SANAD Program
financial report format, and 2) review of the reasonableness of expenditures by
examination of the financial report and documentation of expenses.” However, MSI did
not intend to ensure that spending will be in accordance with the approved budget
included in each agreement. Despite the financial reporting requirement in the grants
manual, there was no reference to any financial reporting requirement in the
agreements. As many of these grantees are inexperienced and lack financial
management expertise, the possibility for fraud, waste, and abuse increases. Therefore,




                                            4

financial oversight is particularly important in the early stages to prevent potential
spending violations while implementing the activities.

Cost Sharing – SANAD’s grants management manual also states that, as outlined in
ADS 303.3.10, MSI will promote cost sharing or a matching contribution when the
organization is deemed to have the capacity to do so. Although there is no general
requirement that grantees must cost share, MSI policy is that cost sharing, most likely in
the form of volunteer labor, is an important element of the MSI-grantee relationship.
However, the amount of cost sharing is not clearly specified in the agreements, and it is
not clear whether it is mandatory or merely suggested. For example, in the two
agreements reviewed out of the four that had been signed, the award summary page
indicated that no grantee contribution was required. In one case, however, some
contributions were included in the approved budget. The budget mentioned contributing
to the cost of transport, office expenses, and audit fees, and that work hours would be
contributed as well, but no monetary values were listed. Both grantee proposals
indicated a willingness to contribute, and MSI’s chief of party verified that grantees who
have expressed their willingness to contribute in the project proposal should have this
willingness reflected in the agreement.

In summary, it is unclear exactly what the cost-sharing requirements for each grantee
will be and how they will be tracked. Furthermore, MSI did not intend to verify how many
hours or how much value was being contributed by the grantees. To ensure that
grantees are committed to working with SANAD to achieve their shared objectives, cost-
sharing requirements should be clearly stated in the agreements and tracked to ensure
that they will be met.

Site Visits – SANAD’s grants management manual states that site visits “are a very
important part of the overall communications and monitoring relationship established
with the grantee. The grantee must have a clear impression that the SANAD Program is
serious about proper implementation of grant activities, timely reporting, and compliance
with the terms and conditions of the grant agreement.” While MSI reportedly plans to
attend 80 percent of the key events, the grant agreements lack a requirement for MSI
site visits or attendance at grantee-organized events. Management oversight, including
site visits, ensures that grantees are aware of their financial and programmatic
responsibilities. Adequate oversight of awards is essential to ensure that USAID
programs are conducted as planned so that they have the potential to achieve the
identified objectives. When implementers and grantees are not aware or reminded of
their fiscal and fiduciary responsibilities, risks to program achievements increase.

In response to the above, MSI explained that the screening process used to select
grantees is thorough and ensures that the capacities for appropriate financial and
performance management are present. While MSI officials agreed that the grantees are
generally small and inexperienced, they believe that the screening process provides
adequate assurance that grantees could be trusted to execute the agreed upon
activities. One of the reasons MSI chose to use fixed obligation grants was because
USAID can easily define accomplishments, and both MSI and the U.S. Government
prefer this type of grant when there is a reasonable certainty about the cost. According
to MSI, fixed obligation grants allow for managing for results with minimal reporting
requirements. MSI also stated that being able to reach the milestones is evidence
enough that grantees are expending the money appropriately and that cost-sharing
contributions are being made.


                                            5

However, some level of oversight (even limited site visits) is warranted to assess the
progress of the grantees and to determine if additional requirements should be imposed
as cited in Title 22, Code of Federal Regulations (CFR) § 226.14, which states that if an
applicant or recipient has “a history of poor performance, is not financially stable, has a
management system that does not meet the standards prescribed in this part, has not
conformed to the terms and conditions of a previous award, or is not otherwise
responsible, the USAID Agreement Officer may impose additional requirements as
needed.”

Although the grantees’ work is just beginning, the audit team makes the following
recommendations to avoid the potential pitfalls described above.

   Recommendation 1: We recommend that USAID/Morocco and its implementing
   partner develop and implement a plan to ensure that grantees are aware of their
   financial management obligations and other USAID rules, regulations, and
   expectations.

   Recommendation 2: We recommend that USAID/Morocco and its implementing
   partner modify all grant agreements to include specific requirements for progress
   reports, financial reports, cost-sharing contributions, and site visits, and ensure
   that these requirements are included in newly awarded grants.


Imminent Staffing Shortages
Should Be Addressed
According to strategic objective 1 of USAID’s Human Capital Strategic Plan fiscal years
(FYs) 2009–2013, USAID should strategically align staff with its priorities. According to
strategic objective 2, USAID should increase staff mobility and readiness to rapidly meet
emerging priorities. These objectives include procedures for maintaining the appropriate
number of personnel with appropriate competencies and leadership ability, increased
readiness to respond to high-need areas, constant work on recruitment, and policy
flexibility to help fill gaps across USAID. Additionally, ADS 200.3.2.4 indicates that
managers have a responsibility to ensure that staff are adequately trained and supported
so that they can meet the accountability requirements that correspond to the authority
delegated.

Changes in the staffing level and increases in program activity in the USAID/Morocco
Office of Democracy and Governance could present significant challenges for the
mission, particularly in FY 2011. The team leader for the Office of Democracy and
Governance unexpectedly departed post on June 2, 2010, and the mission has yet to
identify a replacement. The alternate contracting officer’s technical representative
(COTR) for the SANAD program, presently the acting Democracy and Governance team
leader, may retire in the summer of 2011. As a result, the COTR for SANAD, who has
less than 5 years of USAID experience, may be the only technical officer remaining in
the Office of Democracy and Governance.

During this same period, the workload for this office will increase considerably. The
COTR for SANAD will take on the role of agreement officer’s technical representative



                                            6

(AOTR) for another USAID cooperative agreement (which he anticipates will require
about 25 percent of his time). Also during this period, SANAD activities and
corresponding USAID oversight needs will be increasing sharply as the program starts
full implementation in two additional regions of Morocco (bringing the total number of
regions to three). If no replacement is identified for the acting team leader who may
retire in the summer of 2011, the sole Democracy and Governance officer will be obliged
to assume his current responsibilities. Figures 1 and 2 compare the historic staffing
pattern and the potential future staffing in the Office of Democracy and Governance.

Figure 1: Historic Office of Democracy and Governance (DG) Structure

                                      Team Leader




                1st DG Officer                              2nd DG Officer
                 serving as:                                  serving as:


 COTR of a 2nd DG        COTR of a 3rd DG        COTR of SANAD          AOTR of a 4th DG
     Project                 Project                                        Project




Figure 2: Potential Structure in Summer 2011 (assuming there are no
replacements for two vacant positions)

                     Vacant: Team
                        Leader



    Vacant: 
                        2nd DG Officer
 Retired 1st DG 
                      serving as:
     Officer



  Acting DG            COTR of       COTR of a 2nd      COTR of a 3rd        AOTR of a 4th
 Team Leader           SANAD          DG Project         DG Project           DG Project


There have been no reported delays as a result of these staff shortages. However, if the
Office of Democracy and Governance does not fill these positions soon, it may result in
gaps between the end of some programs and the start of others in the same area. The
acting team leader added that the staff shortage could also result in the cancellation of
USAID work in certain Democracy and Governance areas. Moreover, if not resolved
almost immediately, the Democracy and Governance Officer could find himself with an
unsustainable expanding workload, which would result in ineffective program monitoring.

Assessing the missions’ personnel competencies, abilities, and readiness and adjusting
funding or resources as needed are aspects of program success that should be taken
into consideration during the planning phase for future appropriations. This audit
concludes that without appropriate assessments, USAID cannot expect sustained


                                            7

progress from the Office of Democracy and Governance.

The mission’s long-term plan is to create a new Office of Youth and Human
Development, which would consist of the current Offices of Democracy, Education, and
Peace and Security. Under this scenario, a joint team leader for the three offices would
be able to manage a portion of the Democracy and Governance workload.

The mission agreed that inadequate staffing could become a problem and incorporated it
as an issue in its May 2010 Democracy and Governance portfolio review. Its initial
attempt to fill a U.S. direct hire position was unsuccessful. However, after our fieldwork
was conducted, USAID/Morocco advertised the team leader position on July 17, 2010,
with a closing date of August 17, 2010. The mission anticipates immediate hiring of a
personal service contractor contingent on receiving medical and security clearances.
Also, another Democracy and Governance officer position has been advertised for an
opening in the summer of 2011. Therefore, this report is not making a recommendation.

Financial Management
Should Be Enhanced
According to the COTR designation letter for the SANAD project, the COTR is required
to “monitor the contractor’s performance and verify that it conforms to the technical
requirements and quality standards agreed to in the terms and conditions of the
contract.” It also requires the COTR to monitor the financial status of the contract on a
regular basis to ensure that the level of funding is the minimum necessary. Both these
sections of the designation letter are based on requirements in USAID’s Mandatory
Reference for ADS Chapter 302.

MSI has not been providing detailed financial information to USAID that allows the
COTR to compare actual expenditures against the project’s approved budget on a line-
item basis. This has prevented the COTR from closely tracking the financial status of
SANAD. Since the start of the project in May 2009, MSI has provided financial
information to USAID/Morocco in the form of quarterly financial reports and monthly
invoices, but neither included sufficient information for financial management purposes.

The first of two key causes for the weakness described above was the vagueness of the
financial reporting requirement in the project’s task order. The task order requires only
that financial reports include accrued expenditures and anticipated expenditures for the
next reporting period. MSI has complied with the contract language in its quarterly
financial reports by providing only three figures:         the total billed to date, the
incurred/projected costs through the next quarter, and the total estimated expenditures
through the next quarter. While the invoices that MSI submitted to USAID showed each
expense by category, they were not organized in a format that allowed MSI or the COTR
to compare actual expenditures with those planned in the official project budget (by line
item).

A secondary cause for this problem was that MSI’s office in Morocco was not tracking
actual expenditures against the approved budget and was therefore unable to report this
information. MSI was using a modified budget based on the assumption that significant
changes to the program during the first year would result in a revised budget. Before the
audit, MSI used an internal spreadsheet to track expenditures against an informal



                                            8

budget that it developed. At the time of the audit, MSI reported that it was in the process
of revising this system and that it would be able to provide detailed financial reports
against the project budget in the near future.

Furthermore, since this task order is funded jointly by the Office of Education and the
Office of Democracy and Governance, and since the education funds are earmarked,
USAID needs to track expenditures by each fund source separately. After receiving the
quarterly financial report described above, which did not track each fund source
separately, the mission modified the task order in January 2010 to include a statement
requiring the contractor to “comply with basic education fund requirements.” However,
the March 2010 quarterly financial report was insufficient, and the COTR has made
another request to MSI to differentiate the spending of Office of Education funds and
Office of Democracy and Governance funds. MSI readily agreed to provide this
information in future reports.

The lack of periodic detailed financial information has several consequences. First,
close monitoring of expenditures against an agreed budget can prevent or identify
numerous problems often associated with USAID projects.              Budget-to-actual
comparisons are a standard part of many internal control systems because they allow
reviewers to identify anomalies that could be the result of mismanagement or fraud.
Finally, budget-to-actual comparisons would allow both MSI and USAID to estimate how
project implementation is proceeding against what was expected and make both
technical and financial adjustments as needed.

The COTR confirmed that he had not been able to track the budget by line item or by
fund source and agreed that it would be helpful to do so. To ensure that future financial
reports are sufficiently detailed for USAID to fulfill its financial management
responsibilities, this audit makes the following recommendation.

   Recommendation 3:          We recommend that USAID/Morocco require the
   implementing partner to provide quarterly financial reports that (a) include
   cumulative actual expenditures for the year for each line item in the project’s
   approved budget and (b) differentiate expenses of the Office of Education funds
   from those of the Office of Democracy and Governance.




                                            9

EVALUATION OF
MANAGEMENT COMMENTS
USAID/Morocco agreed with all three recommendations in the draft report. Based on
actions taken by the mission and documentation provided, management decisions have
been reached for recommendations 1 and 2 and final action is achieved for
recommendation 3. The evaluation of management comments is shown below.

Recommendation 1: USAID/Morocco agreed with the recommendation and will request
and approve a revised Grants Manual for the Civil Society Advocacy Project (SANAD).
The contractor has already implemented some of the changes based on the draft Grants
Manual; full implementation will be upon approval of the Grants Manual, on or before
November 30, 2010. Accordingly, a management decision has been reached for this
recommendation.

Recommendation 2: USAID/Morocco agreed with the recommendation and will require
its contractor, Management Systems International (MSI), to modify all its grant
agreements to include specific requirements for progress reports, financial reports, cost-
sharing contributions, and to ensure these requirements are included in newly awarded
grants. The grantees will be made aware that MSI will be paying site visits to the
grantees. MSI has already implemented the changes to grants, and this process will be
formally included in the Grants Manual, upon approval by USAID/Morocco on or before
November 30, 2010. Accordingly, a management decision has been reached for this
recommendation.

Recommendation 3: USAID/Morocco agreed with the recommendation and on
September 30, 2010, USAID/Morocco modified the MSI task order to include the
financial reporting requirement language. The Regional Inspector General/Dakar
reviewed the plan and agrees that it constitutes final action for this recommendation.




                                          10

                                                                             APPENDIX I 





SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of the audit was to determine
whether USAID/Morocco’s Civil Society Advocacy Program (SANAD) is on track to
achieve its main goals.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and
performance targets and indicators. Specifically, we reviewed and evaluated the
following:

      Fiscal year (FY) 2009 and 2010 country operational plans
      Performance management plans
      Actual performance results and supporting documentation
      USAID and partner reports related to the project
      Certification required under the Federal Managers’ Financial Integrity Act
      Implementing partner agreements and subagreements
      Financial reports and supporting documentation

We interviewed key USAID/Morocco personnel, implementing partner staff, subpartner
staff, program beneficiaries, and Government of Morocco officials. We conducted the
audit at USAID/Morocco in Rabat and at the office and activity sites of implementing
partners in Rabat, Salé, and Fez, Morocco. Audit fieldwork was conducted from June 21
to July 2, 2010, and covered selected activities that took place in FYs 2009 and 2010.

As of June 30, 2010, USAID/Morocco had obligated $2,192,000 and expended
$1,844,555 for the SANAD program.

Methodology
To answer the audit objective, we reviewed activities implemented by Management
Systems International, as well as the results reported against all applicable indicators in
the SANAD performance management plan. We also reviewed agreements, progress
reports, financial reports, and work plans of the implementing partner. We reviewed
applicable laws and regulations and USAID policies and procedures pertaining to
USAID/Morocco’s Civil Society Advocacy Program, including the Federal Managers’
Financial Integrity Act of 1982 certification, Automated Directives System (ADS)
chapters 202 and 203, project-specific regulations, and supplemental ADS guidance.




                                          11

                                                                             APPENDIX I 



We interviewed program, financial, and monitoring and evaluation staff at
USAID/Morocco, as well as staff at the implementing partner’s office in Rabat. We
interviewed staff of the only subpartner at the time of our audit—the Morocco Trade and
Development Services. We visited the offices of two civil society organizations in Fez
that received SANAD grants—Association Biladi and Association Zalagh—to obtain an
understanding of the program and to review grant documents. Additionally, we
interviewed an official from the Government of Morocco who partnered with USAID in a
program to train Moroccans in community planning. Finally, we observed USAID-funded
assets to confirm their existence and verify compliance with branding and marking
requirements. These interviews, documentation reviews, and site visits were conducted
to determine how the SANAD program was being implemented, how this implementation
was being documented, whether reported results were accurate, and whether the
SANAD project was on track to meet its goals.

We also performed site visits to observe the following activities being implemented:

      Training for community planners
      Discussion among training recipients of challenges in community planning
      Information technology/Internet training for civil society organizations

During these site visits, we observed activities in progress, interviewed individuals who
were conducting the activities, and interviewed program beneficiaries. The sample
consisted of activities that were in progress during the time of our fieldwork and that
(1) were located in the two metropolitan areas where the project is currently being
implemented (Fez and Salé), (2) were accessible within audit time restrictions,
(3) included a representative sample of the wide variety of programs being implemented,
and (4) involved significant partners. The results from the sample cannot be projected to
the universe of all activities on a statistical basis. However, we believe that our work
provides a reasonable basis for our conclusions.




                                           12

                                                                                       APPENDIX II 




MANAGEMENT COMMENTS




Memorandum
DATE:	         October 22, 2010

TO:	           Gerard Custer, Regional Inspector General, Dakar

FROM:	         John Groarke, Mission Director, USAID Morocco

SUBJECT:	      Updated Response to RIG/Dakar’s Draft Report on Audit of USAID/Morocco’s
               Civil Society Advocacy Program (7-608-11-001-P)

The following are Mission Management Decisions as to the three audit report recommendations
under the subject audit report.

Recommendation No. 1: We recommend that USAID/Morocco and its implementing
partner develop and implement a plan to ensure that grantees are aware of their financial
management obligations and other USAID rules, regulations, and expectations.

USAID/Morocco agrees to corrective action. The plan for corrective action is for
USAID/Morocco to request and approve a revised Grants Manual for the SANAD program, with
the objective of setting forth the contractor’s plan to ensure grantees are aware of their financial
management obligations and other USAID rules, regulations, and expectations. In addition, the
Grants Manual will set out MSI’s plan for reviewing grantees’ progress reports and for SANAD
staff site visits to the grantees. As of the date of this letter, the contractor has already submitted
a revised Grants Manual in response to our request; USAID/Morocco expects to approve the
Grants Manual on or before November 30, 2010. The contractor has already implemented some
of the changes based on the draft Grants Manual; full implementation will be upon approval of
the Grants Manual, on or before November 30, 2010.

Recommendation 2: We recommend that USAID/Morocco and its implementing partner
modify all grant agreements to include specific requirements for progress reports,
financial reports, cost sharing contributions, and site visits and ensure these
requirements are included in newly awarded grants.

USAID/Morocco agrees to corrective action. USAID/Morocco will require its contractor, MSI, to
modify all its grant agreements to include specific requirements for progress reports, financial
reports, cost sharing contributions, and to ensure these requirements are included in newly
awarded grants. As stated above, the grantees will be made aware that MSI will be paying site
visits to the grantees as part of the grants under contract program. MSI has already
implemented the changes to grants, and this process will be formally included in the Grants


                                                 13

                                                                                   APPENDIX II 



Manual, upon approval by USAID Morocco on or before November 30, 2010.

Recommendation 3: We recommend that USAID/Morocco require the implementing
partner to provide quarterly financial reports that (a) include cumulative actual
expenditures for the year for each line item in the project’s approved budget and (b)
differentiate expenses of the Office of Education funds from those of the Office of
Democracy and Governance.

USAID Morocco agrees to corrective action. On September 30, 2010, USAID Morocco modified
the MSI task order to include the financial reporting requirement language, as follows:

   Section F.6: Quarterly Financial Reports shall be detailed as follows:
      a) Include quarterly and cumulative actual expenditures for the quarter and the year by
          line item in the project’s budget, in addition to estimated expenditures for the next
          quarter, and
      b) Differentiate expenses of project components 1-4 from project component 5, as well
          as separate out the shared costs.

Please note: all funds from the Office of Education are Basic Education Earmark funds.
The contractor is responsible to ensure that all earmarked funds supporting this contract
are utilized in accordance with the Agency guidelines for those earmarks.

Quarterly Financial Reports shall be submitted to the USAID Contracting Officer and to the
COTR no later than 30 calendar days after completion of the period being reported.

Thank you for your cooperation.




                                              14

                                                                                                                                                                          APPENDIX III




                                                                                                                                                                                            

                                                                                SANAD Results Framework

                                                                                       Project Goal
                                                            Civil Society Organizations (CSOs) promote democratic reform and
                                                                    advocate for citizens at the national and local levels

                                                              1. Number of policies that have been influenced by CSOs
                                                       2. Number of CSO advocacy campaigns supported by the U.S. Government
                                                       3. Number of U.S. Government-assisted CSOs that engage in advocacy and




                                                          	
                                                                                watchdog functions



  Component 1: Strengthened              Component 2: Greater synergy              Component 3: Improved                Component 4: Increased            Component 5: Enhanced




                                                                          
 

civil society institutional capacity      between the national and local        capacity of local associations to   capacity of CSOs to advocate for        capacity of local level
           and advocacy                       levels of civil society           play a strategic role in the INDH     marginalized and disaffected     organizations to use civil society


                                                                     

                                                                                                                       youth and collaborate with       mobilization and advocacy to
                                                                                                                      local/national government in     improve education quality at the
                                                                                                                       innovative youth programs              community level
  4. CSOs having progressed in                6. CSOs participating in              8. CSOs participating in
     organizational capacity             coalitions or networks established        government programming
                                             to advocate for reform on             processes at the local level       10. CSOs mobilizing and/or        12. Number of parent-teacher
                                            common issues or policies                                               advocating for marginalized and     associations or similar school
                                                                                                                       disaffected or at-risk youth    governance structures supported
  5. CSOs having progressed in                                                   9. CSOs that engage in dialog
                                  





       advocacy capacity
                7. CSOs that play an active role            with local governments
                                         in national-local level coalitions                                            11. Number of initiatives
                                                                                                                      targeting marginalized and       13. Parent -teacher associations
                                                                                                                      disaffected or at-risk youth      or similar school governance
                                                                                                                                                       structures meeting on a regular
                                                                                                                                                                     basis


                                                                                                                                                         14. CSOs mobilizing and/or
                                Key Output/Input Indicators                                                                                            advocating to improve education
                                                                                                                                                                    quality
                               16. Number of CSOs supported
                                17. Number of youth served                                                                                                15. Number of community
                             18. Number of person training days                                                                                          actions in favor of education
                                    19. Number of grants
                                  20. Dollar value of grants
                                                                                 APPENDIX IV



          SANAD Performance Indicators and Results as of June 22, 2010

                                                             PMP                  Percent
Indicator                                                   Target     Actual    Achieved
Number of CSO advocacy campaigns supported by
                                                               4         0         0%
the U.S. Government
Number of U.S. Government-assisted CSOs that
                                                              40         0         0%
engage in advocacy and watchdog functions
CSOs participating in coalitions or networks
established to advocate for reform on common issues           30         0         0%
or policies
CSOs that play an active role in national- or local-level
                                                              20         0         0%
coalitions
CSOs mobilizing and/or advocating for marginalized
                                                               5         0         0%
and disaffected and/or at-risk youth
Number of initiatives targeting marginalized and
                                                              10         0         0%
disaffected and/or at-risk youth
Number of parent teacher associations or similar
                                                              54         42        78%
school governance structures supported
Number of community actions in favor of education             30         0         0%
Number of CSOs supported                                      100       169       169%
Number of youths served                                       200        51        26%
Number of person training days                               2,000      1,422      71%
Number of grants                                              50         4         8%
Dollar value of grants                                      $480,000   $67,000     14%




                                              16 

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
